<html>
<title> - HEARING ON THE NOMINATION OF SAMUEL HAMILTON TO BE DIRECTOR OF THE UNITED STATES FISH AND WILDLIFE SERVICE</title>
<body><pre>[Senate Hearing 111-1207]
[From the U.S. Government Publishing Office]




                                                       S. Hrg. 111-1207

                      HEARING ON THE NOMINATION OF
 SAMUEL HAMILTON TO BE DIRECTOR OF THE UNITED STATES FISH AND WILDLIFE 
                                SERVICE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 22, 2009

                               __________

  Printed for the use of the Committee on Environment and Public Works



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://www.gpo.gov/fdsys
                               __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-165 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
















               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 22, 2009
                             
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     2
Cochran, Hon. Thad, U.S. Senator from the State of Mississippi...     3
Cardin, Hon. Benjamin L., U.S. Senator from the State of 
  Maryland, prepared statement...................................    34

                                WITNESS

Hamilton, Samuel, nominated to be Director, U.S. Fish and 
  Wildlife Service...............................................     5
    Prepared statement...........................................     7
    Responses to additional questions from:
        Senator Lautenberg.......................................    14
        Senator Inhofe...........................................    17
 
  HEARING ON THE NOMINATION OF SAMUEL HAMILTON TO BE DIRECTOR OF THE 
                UNITED STATES FISH AND WILDLIFE SERVICE

                              ----------                              


                        WEDNESDAY, JULY 22, 2009

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full committee) presiding.
    Present: Senators Boxer, Inhofe, Cardin, Barrasso, and 
Alexander.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Good morning. Today the Senate Committee on 
Environment and Public Works will consider the nomination of 
Sam Hamilton to be the Director of the U.S. Fish and Wildlife 
Service.
    We are very happy to see Senator Thad Cochran here to 
formally introduce him to the committee, and if you do not 
mind, Senator, the two of us will do brief opening statements, 
and then we will call on you. Is that all right?
    Senator Cochran. That is fine, Madam Chairman. Thank you.
    Senator Boxer. During his 30-year career with the Fish and 
Wildlife Service, Mr. Hamilton has held a variety of positions 
in Washington, DC, and in the field. He currently serves as 
Regional Director for the Southeast Region of the FWS, a 
position he has held since 1997. In this position, Mr. Hamilton 
has oversight responsibilities for endangered species 
conservation, national wildlife refuges, fisheries and 
migratory bird conservation across the Southeastern United 
States and the Caribbean.
    He also plays a senior role in the Everglades, a very 
important project, and of course, coastal Louisiana restoration 
projects which are so key to future flood control.
    His experience makes him especially well qualified to deal 
with the many challenges faced by the Fish and Wildlife Service 
today. The Fish and Wildlife Service is the guardian of natural 
treasures and species in every State of the Union. In my own 
home State of California, the Service has responsibility for 
iconic species like the California condor and irreplaceable 
wildlife refuges like the ones we have in San Francisco and San 
Diego.
    The Agency scientists are also on the front lines in 
documenting and addressing the impact of global warming on 
species and their habitats. The world's leading scientists have 
estimated that up to 40 percent of the species could be at risk 
of extinction from unchecked global warming.
    At the same time, the Service is emerging from a very 
difficult time. In recent years, the funding levels were 
slashed, the refuges and other public lands deteriorated, and 
scientific integrity, in my view, was often overridden by 
expediency.
    I was so pleased to see President Obama take important 
steps to restore scientific integrity and uphold the Endangered 
Species Act. The President's priorities were echoed by 
Secretary Salazar, who said that ``His first priority in 
Interior is to lead the Department with openness in 
decisionmaking, high ethical standards and respect for 
scientific integrity.''
    Today, I look forward to hearing how, if confirmed, you, 
Mr. Hamilton, will fulfill these commitments at the Fish and 
Wildlife Service. Our national wildlife refuges also need 
immediate attention. Many are in a state of disrepair as a 
multi-billion dollar operation and maintenance backlog grows.
    And in recent years, funding shortfalls and policy changes 
have resulted in the elimination of many positions and limited 
public access to many our Nation's refuges. I was especially 
pleased that the Fish and Wildlife Service received $300 
million in the stimulus bill to begin to address some of these 
immediate needs at our refuges.
    Strong leadership is certainly needed to protect and 
preserve our Nation's natural treasures and to ensure that the 
pressing problems facing the Fish and Wildlife Service are 
addressed.
    Your record as a committed conservationist, your many years 
of experience with the Fish and Wildlife Service will serve you 
well as you take on this challenge.
    I know you have members of your family here, and after you 
are introduced by Senator Cochran, and before you speak, we 
will ask you to introduce your family because this is a family 
commitment.
    And at this point, I will turn the mic over to Senator 
Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman.
    The Director of the Fish and Wildlife Service has a 
responsibility for overseeing a lot of programs, most notably 
the Endangered Species Act. To date, the Obama administration, 
I do not believe they have been transparent or science based. 
However, I know you well. You have the reputation of being very 
fair, and I think that we are going to make some progress in 
those areas.
    A lot of people are not aware of the close relationship 
between you and Dale Hall, your predecessor. He did a very fine 
job. As I told you in my office, one of my favorite programs, 
and the best way to handle these things, is working with 
landowners, working with our farmers and ranchers.
    We had a hearing on the partnership out in our State of 
Oklahoma. In fact, Dale Hall was there at that time. And we had 
testimony after testimony about great things that have happened 
in preservation and conservation, all done in cooperation. It 
is not a matter of taking someone's property rights away from 
them. It is a matter of working with them.
    A lot of people are surprised to find out that our 
stakeholders, our landholders, our farmers, our ranchers, 
certainly in Oklahoma and elsewhere, they want to conserve, 
they want to have--they want the same goals that you do. So, it 
is easier to work with them as opposed to working over them.
    So, I look forward to supporting your nomination and 
working with you in the same close way that we did with Dale 
Hall. And, of course, as you and I talked about in my office, 
you have the same commitment to a partnership approach to these 
things as he had, and as I have, and I think this panel has.
    We welcome you and look forward to your testimony, although 
I have to hammer cap-and-trade at a news conference at 10:30, 
so I may have to leave a little bit earlier.
    [Laugher.]
    Senator Inhofe. Thank you very much.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Good morning. We are here today to consider the nomination 
of Samuel Hamilton for Director of the U.S. Fish and Wildlife 
Service.
    The Director of the Fish and Wildlife Service is 
responsible for overseeing many programs within this 
committee's jurisdiction--most notably the Endangered Species 
Act.
    To date, the Obama administration's implementation of ESA 
has been neither transparent nor science-based. However, you 
have a reputation for being fair minded. And you have told me 
you believe that public-private partnerships are one of the 
best ways to effectively protect species and habitat. I ask for 
your assurance that under your leadership, we can expect 
improvements in transparency as well as in the science the 
Service uses to make decisions. I also hope that before taking 
any action, you will consider the economic impacts on jobs and 
local communities.
    Despite these ESA controversies, the Fish and Wildlife 
Service does a great deal of good. One of the programs I am 
particularly interested in is the Partners for Fish and 
Wildlife Program. This program conserves habitat by leveraging 
Federal funds through voluntary private landowner 
participation. As you know, I have concerns about how these 
designated funds have been used, and I look forward to working 
with you on this issue.
    Most importantly, I welcome you before the committee. And I 
look forward to hearing your perspectives on the issues that 
will be raised today.

    Senator Boxer. We are going to keep you right here. Will 
you bolt the doors? Thank you.
    [Laughter.]
    Senator Boxer. OK. It is Senator Cochran's turn to 
introduce our special nominee.

            OPENING STATEMENT OF HON. THAD COCHRAN, 
           U.S. SENATOR FROM THE STATE OF MISSISSIPPI

    Senator Cochran. Madam Chairman, Senator Inhofe, thank you 
very much for the opportunity to be here today to participate 
in this hearing.
    I am here to introduce my friend Sam Hamilton from 
Starkville, Mississippi, who has been nominated to serve as the 
Director of the U.S. Fish and Wildlife Service. I have known 
the nominee for many years and believe he is well qualified for 
this important position.
    For more than 10 years, Sam Hamilton has been the Southeast 
Regional Director of the Fish and Wildlife Service. During this 
time, he has the opportunity to gain significant experience 
with the operation and maintenance responsibilities of the Fish 
and Wildlife Service.
    Specifically, he has had the opportunity to oversee the 
Service's Everglades restoration activities, and has 
represented the Secretary of the Interior in coastal Louisiana 
restoration efforts.
    In his 30-year career, Mr. Hamilton has learned the 
essential role of individual States in conserving our Nation's 
wildlife. He appreciates that these experiences will help him 
deal successfully in certain specific management challenges.
    I think Mr. Hamilton believes, as I do also, that abundant 
wildlife and healthy outdoor environments are very important 
resources of our Nation. We must coordinate government 
activities with private landowners and respect their rights to 
preserve, and help preserve, lands managed by the Fish and 
Wildlife Service for the benefit of future generations.
    I am pleased to recommend Sam Hamilton for confirmation for 
service as Director of the Fish and Wildlife Service.
    [The prepared statement of Senator Cochran follows:]

                    Statement of Hon. Thad Cochran, 
               U.S. Senator from the State of Mississippi

    Madam Chairman, I am pleased to introduce to the committee 
Mr. Sam Hamilton of Starkville, Mississippi, who has been 
nominated to serve as the Director of the U.S. Fish and 
Wildlife Service. I have known the nominee for many years and 
believe he is well qualified for this important position.
    For more than 10 years, Sam has been the Southeast Regional 
Director of the Fish and Wildlife Service. During this time, he 
has had the opportunity to gain significant experience with the 
operation and maintenance responsibilities of the Fish and 
Wildlife Service. Specifically, he has had the opportunity to 
oversee the Service's Everglades restoration activities and has 
represented the Secretary of the Interior in coastal Louisiana 
restoration efforts.
    In his 30-year career, Mr. Hamilton has learned the 
essential role of individual States in conserving our Nation's 
wildlife resources. These experiences will help him deal 
successfully in addressing site-specific management challenges.
    Mr. Hamilton believes, as do I, that abundant wildlife and 
healthy outdoor environments are very important resources of 
our Nation. We must coordinate Government activities with 
private landowners to preserve lands managed by the Fish and 
Wildlife Service for the benefit of future generations.
    I am pleased to recommend Sam Hamilton for confirmation for 
service as Director of the Fish and Wildlife Service.

    Senator Boxer. Senator, thank you so much. I think that 
both Senator Inhofe and I think that your introduction is a big 
plus for our nominee. We know that you have a busy day and, at 
whatever point you need to go forward, please do. Know that we 
appreciate your being here today.
    Senator Cochran. Thank you very much, Madam Chairman.
    Senator Boxer. Thank you, Senator.
    Well, Mr. Hamilton, this is your turn to make your 
presentation to us, and if you want to start by introducing the 
guests that you have with you today, that would be very 
appropriate.
    Mr. Hamilton. Thank you, Chairman Boxer. I am pleased to 
have today, my wife, Becky, who is behind me, of 31 years, and 
we have two sons that are not here, but they are here in 
spirit, one back in Georgia and one back, I think, taking a 
calculus test this morning, I hope.
    Senator Boxer. Oh, boy.
    Mr. Hamilton. And a 5-year-old grandson that I had hoped 
would be here because he could provide a lot of entertainment. 
And my brother surprised me this morning, Steve from New York, 
and he brought two friends down from up in the Albany area.
    Senator Boxer. Welcome to everyone here.

 STATEMENT OF SAMUEL HAMILTON, NOMINATED TO BE DIRECTOR, U.S. 
                   FISH AND WILDLIFE SERVICE

    Mr. Hamilton. Thank you, Chairman Boxer and Senator Inhofe.
    It is an honor to be here today as the President's nominee 
to be Director of the U.S. Fish and Wildlife Service.
    I am a career Service employee, and I had my first job 
actually with the Service at the ripe old age of 15 years old 
in the Youth Conservation Corps at Noxubee National Wildlife 
Refuge near my hometown of Starkville, Mississippi. There I got 
to learn how to band wood ducks and Canada geese, and learned 
what a posthole digger was for the first time in my life as we 
built waterfowl pens.
    But I also got to learn from those employees what a deep 
commitment they had for the Nation's fish and wildlife 
resources, and I think they sparked an interest in a young boy.
    Over my 30-year career, I have had the privilege of serving 
in a variety of positions in a variety of places all across the 
United States. I served almost half of my career in the field 
and in regional offices and here in headquarters in Washington, 
DC.
    I also have responsibility in the Southeast, as you know, 
with a 10-State region, and I have done that for the 12 years 
that I have been Regional Director. We have the Commonwealth of 
Puerto Rico and the Virgin Islands.
    Throughout my career, I have had a number of tough 
challenges and worked on some of the biggest restoration 
programs in the country, with the Florida Everglades and 
coastal Louisiana. I have been a strong advocate for the 
National Wildlife Refuge System, and I played a role, a key 
role, in the Southeast with the development of the National 
Fish Habitat Plan that I do believe is before Congress.
    I take the Migratory Bird Program very seriously, and I 
chair the Lower Mississippi Valley Joint Venture in the 
Migratory Bird Program. I have been a big proponent of the 
development of conservation partnership across governments and 
with the private sector. And I have been a strong supporter of 
our law enforcement program, particularly ports of entry. I 
place the greatest amount of importance on our State wildlife 
relations with the resource agencies there.
    I am, by nature and by choice, a problem solver. Throughout 
my career, I have worked with communities to find innovative 
solutions to complex, and at times contentious, endangered 
species issues. I worked on the Balcones Canyonlands 
Conservation Plan in Texas with the golden-cheeked warbler and 
the black hat varia. I worked on numerous safe harbors and have 
overseen the program for red-cockaded woodpeckers across the 
Southeast and helped create the West India manatee forum to 
help resolve contentious issues in Florida with that important 
species.
    These efforts helped resolve some cases that had been in 
conflict for years, that were not only detrimental to people 
but certainly stood in the way of species recovery.
    All of my experiences together over the three decades have 
helped me shape my understanding of the breadth, depth and 
importance of the conservation mission of the Fish and Wildlife 
Service. They have also helped me hone my scientific wildlife 
management and leadership skills.
    This is truly an exciting time for the Fish and Wildlife 
Service. The challenges to maintaining healthy ecosystems and 
sustainable populations of fish and wildlife resources have 
never been greater. Climate change is the transformational 
conservation challenge of our time, not only because of the 
direct effects, but also because of the influence that it has 
on the stressors that we have to deal with even today in our 
wildlife conservation.
    I have been an active member of our Executive Oversight 
Committee for the past few years, developing a draft strategic 
plan on how this Agency is going to move forward with climate 
change. And if confirmed as Director, I look forward to working 
with Congress as we begin to implement this plan.
    I am committed to the philosophy of collaborative 
partnerships for conservation as a biologist. And I am 
committed to the tenet that the Fish and Wildlife Service 
decisions must be grounded in the best available science. Our 
credibility internally with our employees, and externally with 
our peers and stakeholders, depends upon adherence to this 
tenet.
    I believe that the two, scientific integrity and 
partnership approach, work hand in glove to give us the best 
results in achieving our conservation goals. With that in mind, 
I have taken a leadership role in helping lead the Agency in a 
new paradigm called Strategic Habitat Conservation that will 
have us following science and that lead us, adapting our 
strategies as our scientific knowledge increases with research.
    In the Southeast Region, we have already taken steps along 
those lines. We have restored 80,000 acres of bottomland 
hardwoods, working with industry and partnerships with 
conservation organizations to restore those hardwoods in a 
carbon environment of 33 million metric tons over 75 years.
    I will close by saying that the confidence with which I 
accept this nomination lies less in my own abilities and 
strengths than in the fact that I know the group and caliber of 
people that I will be leading if confirmed. Our folks are an 
exceptional group, from the biologists to the office 
assistants, from wildlife managers to financial analysts.
    I look forward to answering any questions about my track 
record and my tenure at the Fish and Wildlife Service.
    Thank you.
    [The prepared statement of Mr. Hamilton follows:]
    
    
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Senator Boxer. Thank you, Mr. Hamilton.
    I wanted to note that Assistant Secretary for Fish and 
Wildlife in National Parks Tom Strickland, is here. I think it 
is wonderful that you are here, Mr. Secretary, to show your 
support.
    I also wanted to note that Senator Inhofe does have a 
pressing commitment. So, what I am going to do is just the 
official questions for you now that I have to ask, then call on 
Senator Inhofe, then I will start the routine questioning, then 
I will call on Senator Alexander for his.
    So, these are required questions.
    Do you agree, if confirmed by the Senate, to appear before 
this committee, or designated members of this committee, and 
other appropriate committees of the Congress, and provide 
information subject to appropriate and necessary security 
protection, with respect to your responsibilities at the U.S. 
Fish and Wildlife Service?
    Mr. Hamilton. Yes, I do.
    Senator Boxer. Second, do you agree to ensure that 
testimony, briefings, documents, electronic and other forms of 
communication, as provided to this committee and its staff, and 
other appropriate committees, in a timely manner?
    Mr. Hamilton. Yes, I will.
    Senator Boxer. And three, do you know of any matters which 
you may or may not have disclosed that might place you in any 
conflict of interest if you are confirmed?
    Mr. Hamilton. No, I do not.
    Senator Boxer. Excellent. Well, thank you for that.
    Senator Inhofe, the floor is yours.
    Senator Inhofe. This will be very brief. I do have a couple 
of questions that I will submit for the record, one having to 
do with some of the activists' petitions, how you are going to 
be dealing with these that might make recommendations of 
listing that are predicated on agenda and not having to do with 
the legitimacy of this office. So, we will go ahead and submit 
those.
    But there is one thing that I wanted to get out because it 
has concerned me. You and I, in my office, talked about the 
Partnership Program and how committed I am to it and the 
successes of that program. I was somewhat responsible for and 
authored legislation in 2005 to specifically authorize the 
program an additional funding of up to $75 million.
    However, although the 2009 program will receive almost $53 
million, I understand that some amounts of that, several 
million dollars, have been redirected from this program in 
previous years for costs in other areas. So what I am going to 
ask you to commit to here, and I am going to read it here so I 
can get it right and the record will reflect it, please provide 
a full accounting of the Partnership Program funding since 
October 2006 that shows what appropriations the program 
received as well as how the funding was used in each region.
    This is not the first time we have made a request for this 
information. Would you commit now to ensuring that I get a 
response to this request very soon, no time specific, but very 
soon?
    Mr. Hamilton. Thank you, Senator. I did enjoy our visit the 
other day and the chance to visit on a Partners for Fish and 
Wildlife Program.
    As I mentioned to you, I think that is a flagship program 
of this Agency. It is a wonderful program where we work with 
private landowners. We have gotten so much on the ground and 
the partnerships that we have had, and the matching moneys, and 
the land owner relationships that have been built there, so, to 
answer your question, if I am confirmed, definitely, I will 
make it a top priority of mine. It is that important a program.
    Senator Inhofe. No, I am talking about committing that we 
get a response as to the funding that I just mentioned. That is 
the commitment that I am asking for.
    Mr. Hamilton. And my understanding is that response is 
forthcoming very shortly. So, I will----
    Senator Inhofe. So you commit to that?
    Mr. Hamilton. Yes, I will commit to that. Yes, sir.
    Senator Inhofe. Thank you very much, Madam Chairman. And if 
you will excuse me, I do have to run here.
    Senator Boxer. Thank you, Senator Inhofe.
    Mr. Hamilton, the American Recovery and Reinvestment Act, 
the Stimulus Bill, provided nearly $300 million to Fish and 
Wildlife for a variety of activities including deferred 
maintenance, which we discussed in my opening statement, 
habitat restoration and energy efficiency upgrades. I 
understand that the service has made significant progress in 
implementing projects with these funds.
    Now, yesterday we heard this program blasted by one of my 
colleagues here, and I wanted to first ask if you have looked 
at the status of the distribution of these funds. If you could 
tell me today, in rough terms, how many of these funds have 
been committed, and if not, will you please let us know within 
30 days the status because it is important that we get these 
funds out there?
    Mr. Hamilton. Thank you, Senator. I do not have specific 
information right now at my fingertips on the breadth of the 
program in terms of how much we have expended, but we will get 
that information back to you.
    Senator Boxer. Please. Within 30 days----
    Mr. Hamilton. Within 30 days.
    Senator Boxer [continuing]. Of your confirmation.
    Mr. Hamilton. We will do that.
    Senator Boxer. All right. That is very good. And I hope 
that you will also commit to me that you will ensure that those 
funds are properly--those projects are properly vetted, but as 
quickly as possible. Will you make that commitment?
    Mr. Hamilton. I will make that commitment. We are doing 
that today, in the Southeast.
    Senator Boxer. Thank you.
    Mr. Hamilton, stagnant budgets for maintenance of the 
National Wildlife Refuge System and rising costs have resulted 
in a multi-billion dollar maintenance backlog, a loss of staff, 
limited public access, and threatened wildlife.
    Recently funding in the stimulus will address critical 
near-term needs, but a long-term and sustainable solution is 
critical. Do you believe funding and maintenance of our refuges 
is an important issue, and if confirmed, what steps will you 
take to address the state of our wildlife refuges?
    Mr. Hamilton. Well, Senator, thank you for the question. 
The National Wildlife Refuge System is near and dear to my 
heart from the day that I started to work here, and I have been 
a big advocate for it.
    It is severely under-funded in terms of the maintenance 
backlog as well as operational funding. We have very many 
refuges with very few staff and some that are not even staffed. 
So, we have taken dramatic steps to [unintelligible] it.
    I have, the whole time that I have been a director, I have 
been an advocate and will push for as much funding to support 
that program. And I think that the last thing is, we have made 
great strides with friends groups and volunteer programs and 
the support there has been unbelievable. So, it will be a 
priority of mine.
    Senator Boxer. OK. Do you commit, if confirmed, to provide 
the committee with an update on the status of our refuges 
within 60 days of your confirmation?
    Mr. Hamilton. Yes, I will commit to doing that within 60 
days.
    Senator Boxer. OK.
    Mr. Hamilton, what role do you believe science should play 
in the implementation of the Endangered Species Act?
    Mr. Hamilton. Science is the foundation of the Endangered 
Species Act, as well as the foundation of our whole Agency. And 
so, if the science is not sound, then the whole foundation is 
not very good.
    Senator Boxer. OK. And now I have one, sort of, a criticism 
of your record has been put forward, one group only, the Public 
Employees for Environmental Responsibility. You otherwise have 
a very strong support. They raise concerns about your track 
record on implementing the Endangered Species Act and making 
decisions based on science.
    In light of the fact that you did say that science was the 
centerpiece, I wonder if you could clear the air on that and 
respond to their charges.
    Mr. Hamilton. I would be happy to do that. I was a little 
surprised to see that letter, and there were several points 
that they raised that I would like to clarify.
    Senator Boxer. Please.
    Mr. Hamilton. Principally, about 6 years ago, I think the 
principal issue had to do with our Florida Panther Conservation 
Program in South Florida. We are very proud of the work that we 
have done there. When I got to Atlanta in 1995, we estimated 
that we had 25 panthers left in the wild, a very endangered 
cat. Today, we have well over 100, so we are on the road to 
recovery. But we have a long way to go.
    We did not, over the years, we have had to adapt because of 
new information, and it is continuously coming in as to how we 
conserve panthers. There were two instances, one where we were 
relying on telemetry information from a world renowned 
scientist that did not accurately reflect all of the habitat 
the panther needed. And the other had to do, we transposed two 
numbers, our field biologists did as they were doing some 
calculations. We had an independent group look at it in 2005, 
and we made those adjustments.
    We have an incredible program down in South Florida, 
working with the State. We have got a 2.5-million-acre target 
for conservational lands, and we are working with many of the 
big environmental groups to help restore that panther, 
Defenders, Audubon and the Wildlife Federation.
    So, we place the highest regard on our science, and our 
field station at Vero Beach does an incredible job facing some 
tough challenges with the development pressures in South 
Florida. But we are proud of the record, and it is very 
transparent.
    Senator Boxer. And you clearly stand on the side of 
science, and that is very important, and I am very glad that 
you explained that.
    I think next would be Senator Alexander.
    Senator Alexander. I am simply here to say, Mr. Hamilton, 
that I am delighted with your appointment and look forward to 
working with you. I remember one time meeting an old man in the 
Great Smoky Mountains when I was Governor, and he said to me, I 
ain't heared nothin' bad on ya yet.
    [Laughter.]
    Senator Alexander. So, I would say that to you. I have had 
calls from the Tennessee people that you have worked with you, 
and they think you are a good professional and that you know 
the region and that you know the subject. And I look forward to 
working with you on the Appropriations Committee. This is an 
area of great interest to me in our State.
    As you know, we have a lot of wildlife refuges, especially 
in the western part of the State, in the drainage area over 
there, Reelfoot Lake. And you know Gary Myers very well, who 
had been head of our Wildlife Resources Agency for about 100 
years until he retired a year ago.
    We have great respect for work that Gary and the TWRA do. I 
think we have more people who hunt and fish than vote, so we 
care about our outdoors, and the condition of it, and our 
wildlife. I hope that you will call on me and keep in touch 
with me as you go through your work.
    I have just one question. It is really a matter of 
curiosity. Do you know whether any of the panthers have made it 
to the Great Smoky Mountain National Park or not?
    Mr. Hamilton. Not that I know of. We get reports all over 
the South about panthers. But, occasionally we have an escape 
of someone's captive cat, I think----
    Senator Alexander. You think that might be more likely?
    Mr. Hamilton. Either that or a bobcat. A lot of time people 
see bobcats and they think----
    Senator Alexander. Are there a lot of bobcats in the 
Southeast?
    Mr. Hamilton. There are plenty of bobcats.
    Senator Alexander. So that is not unusual?
    Mr. Hamilton. No, sir.
    Senator Alexander. We have markings on trees sometimes that 
we see that suggest cats. Not many, but occasionally, so I was 
just curious about it. How many Florida panthers are there?
    Mr. Hamilton. Right now, our best estimate is a little over 
100. They are restricted to South Florida in the Naples-Fort 
Myers area, that far south.
    Senator Alexander. Restricted by what?
    Mr. Hamilton. Well, historically they were found in 
Tennessee and they were found throughout the Southeast region. 
But over time, we pretty well eliminated them. The habitats 
there, it is just----
    Senator Alexander. People kill them?
    Mr. Hamilton. Yes, people kill them.
    Senator Alexander. So, you have got enough? You think 2.5 
million acres is enough to support how big a population of 
panthers?
    Mr. Hamilton. Well, we think that we are approaching the 
limit for what we have there. The key in South Florida is to be 
able to work with private landowners, and there is a zone there 
that we need to get them through on the Caloosahatchee River 
and the big ranchland up North. So, we have been working with 
private landowners.
    But the recovery plan talks about two other populations, 
and that would involve a reintroduction. So, I have had good 
discussions with State Directors----
    Senator Alexander. What do you mean by a reintroduction?
    Mr. Hamilton. Actually reintroducing panthers in other 
parts of the Southeast. But we have had a lot of discussions 
with State Directors, and we have a ways to go in terms of----
    Senator Alexander. How much territory does that take, do 
you think?
    Mr. Hamilton. It would take probably take several million 
acres. Now, we----
    Senator Alexander. If we are going to reintroduce it in a 
new area, it would take several million acres?
    Mr. Hamilton. Correct, to have a sustainable population.
    Senator Alexander. Yes. We tried wolves in the Great 
Smokies, which is half a million, and it was not big enough. 
That was the problem, I think.
    Mr. Hamilton. We did bring the red wolves in, but they did 
not make it.
    Senator Alexander. No, they did not. But the elk are doing, 
are you involved with the elk at all?
    Mr. Hamilton. Not really. The State of Tennessee and the 
State of Kentucky have big elk programs.
    Senator Alexander. But that it not a part of your 
jurisdiction?
    Mr. Hamilton. No, sir.
    Senator Alexander. Are there any elk in those wildlife 
refuges in West Tennessee that you know of?
    Mr. Hamilton. No, the West Tennessee refuge is primarily a 
waterfowl refuge. So the elk are found, it is my understanding, 
in the Eastern part of the State and in Kentucky also.
    Senator Alexander. Why would elk not be a concern of yours? 
Any particular reason? Any jurisdictional reason?
    Mr. Hamilton. It is a jurisdictional issue. It is a State 
resident species, and we work very closely with them. So, they 
take the lead on those. We have migratory species that cross 
State lines, endangered species, those kinds of things.
    Senator Alexander. OK. I think you have got a good job.
    [Laughter.]
    Mr. Hamilton. Yes, it has been a great career.
    Senator Hamilton. Yes, I think so. So, welcome aboard, and 
I hope you are confirmed, and I look forward to working with 
you.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you very much, Senator.
    Senator Cardin.
    Senator Cardin. Well, thank you very much, Madam Chairman.
    Senator Alexander, you have shown in your questions that it 
seems like it may be a good job for you. I do not know.
    [Laugher.]
    Senator Alexander. Well, all of us need a backup in our 
current work.
    [Laughter.]
    Senator Cardin. I understand that.
    Mr. Hamilton, I share Senator Alexander's comments. We look 
forward to your confirmation. We look forward to working with 
you.
    Madam Chairman, I am going to ask that my opening statement 
be included in the record. It points out the obvious: that the 
health of fish and wildlife in our environment very much 
affects our health, and if the fish and wildlife are doing 
well, we have a much better chance of doing well.
    It also points out the economic impact of fish and wildlife 
to our economy, a multi-billion dollar industry for fisherman 
and hunters and birdwatchers, and it is an area that we need to 
pay attention to.
    I thank Chairman Boxer for allowing me to Chair the Water 
and Wildlife Subcommittee. And I look forward to working with 
you.
    I want to follow up on one point that Senator Boxer raised, 
and Senator Alexander, on our wildlife refuges. Just one point 
of information. Senator Nelson testified before our 
subcommittee, and he talked about the Burmese python. And I 
believe he said that a panther was actually found inside of a 
Burmese python. So, you have a real challenge in our wildlife 
refuges in dealing with invasive species.
    This brings me to the nutria at Blackwater on the Eastern 
Shore of Maryland. We are very proud of the work that we have 
done at Blackwater in trying to restore lost wetlands. But we 
are losing a lot of wetlands, I think 5,000 acres we lost, as a 
result of the nutria, which is an invasive species.
    You mentioned, in response to Senator Boxer, the resources 
are not what we need, generally, in dealing with these issues. 
I can tell you that the local governments do not have enough 
resources to deal with this issue, and we need to have a more 
effective strategy if we are going to be able to deal with the 
challenges that invasive species are providing us in our 
national refuges.
    I just ask for your help and commitment to develop a 
workable strategy, working with our local governments, to be 
able to improve wildlife habitats, including dealing with 
invasive species.
    Mr. Hamilton. Thank you, Senator. Invasive species are a 
huge threat, not only to refuges, but probably one of the 
biggest threats we have to wildlife in the United States and 
North America.
    I have a lot of familiarity with nutria, as you can 
imagine, working with the State of Louisiana. I represent the 
Secretary of the Interior on the Breaux Act, the CWPPRA 
Program, and we actually have a program there we fund under the 
Louisiana program to control nutria.
    I have seen first hand the effect it can have on marshes, 
certainly in coastal Louisiana, and I was surprised, many years 
ago, when I heard they were in Maryland and up the East Coast. 
They can wreak havoc. So, we do need to stay on top of that.
    Senator Cardin. I thank you. They have wreaked havoc. We 
have lost thousands of acres of wetlands as a result of it. I 
have taken a tour through Blackwater and seen first hand the 
damage that they have caused. And they have had an effective 
program in eradicating them, but it is a continuing effort. It 
is more management right now than eradication. It is still a 
real challenge.
    I also want to underscore the point that Senator Boxer made 
on the Endangered Species Act and being guided by good science. 
I would be interested as to your ideas as to whether we need to 
visit the Endangered Species Act, whether there is a new 
strategy in regards to it, and how we can try to keep politics 
to a minimum and be guided by proper science.
    Mr. Hamilton. Well, thank you for that question. It has 
been a challenging career working on the Endangered Species 
Act. No doubt. We have had some challenging moments with 
people, shall I say, influencing the science inappropriately 
over the past few years.
    We have to ground what we do in good science. We have to 
restore the integrity of the Agency, not only internally, but 
with our stakeholders. That is going to be a very, very high 
priority of mine if I am confirmed.
    Having worked with the Endangered Species Program for 
probably 25 of my 30 years, I have seen some very good, 
innovative parts of the program develop, habitat conservation 
plans, safe harbors, Canada conservation agreements, where we 
have worked very creatively with private landowners.
    Having said that, I have seen many of the programs get 
mired in almost a quagmire of red tape. So, I think internally 
we already are taking a hard look at what we can do to 
streamline certain parts of it, to look at policies and 
regulations that are now in place that may need to be improved. 
It is, I think, going to be right at the top of things that I 
would deal with, as long as I know that this Administration 
wants to make sure it is handled properly.
    Senator Cardin. Well, I thank you for that. I look forward 
to working with you.
    Thank you, Madam Chair.
    [The prepared statement of Senator Cardin follows:]

                 Statement of Hon. Benjamin L. Cardin, 
                U.S. Senator from the State of Maryland

    Chairman Boxer, thank you for holding this hearing, and Mr. 
Hamilton, welcome to the committee. I look forward to hearing 
your testimony and answers to our questions.
    Fish and wildlife are important natural resources just like 
clean air and clean water. The health of fish and wildlife 
populations is an important indicator for environmental health 
and quality because when wildlife populations thrive, human 
populations thrive as well.
    America's unique and diverse wildlife is emblematic of our 
culture and land ethic. The work of the United States Fish and 
Wildlife Service to protect and manage our wildlife resources 
is important to ensuring the long-term health of wildlife 
resources because so much of our domestic land and water use 
decisions impact wildlife species.
    Fish and wildlife are integral to the U.S. economy. They 
are at the heart of the multi-billion dollar outdoor recreation 
industry, which includes angling, bird watching, and hunting 
and is the reason thousands of people hike and camp in 
America's outdoors. In Maryland, protection of fish and 
wildlife resources is vitally important to the Chesapeake Bay 
economy and numerous industries, including commercial 
fisherman, shipping and the hospitality industry.
    Protecting wildlife resources is no simple task. Earlier 
this month Senator Whitehouse and I co-chaired a hearing on the 
threats invasive species and disease pose to wildlife. These 
are very difficult issues to manage and require close and 
careful coordination with State authorities.
    White-nose syndrome is killing hundreds of thousands of 
bats in the Northeast. Chronic wasting disease continues to 
spread among deer and elk populations. Burmese pythons are 
becoming the top predator in southern Florida, and in my State 
snakehead fish are wreaking havoc on native fish populations, 
and nutria continue to destroy coastal wetlands.
    Addressing these and other threats to wildlife while also 
managing species to avoid human conflicts requires careful 
coordination with State authorities and sound science. As was 
evident in our hearing, States are strapped for resources and 
often don't have the capacity to address emerging threats 
before they are beyond control.
    President Obama has stated that science will guide his 
administration's decisionmaking. Species management and habitat 
conservation require careful scientific application. The last 
administration, which you worked under, did not always use 
science to guide its wildlife management policies. I am curious 
to know how your tenure under the former administration will 
influence your decisionmaking and what you would change in 
terms of process around USFWS.
    I look forward to hearing about your experience and your 
ideas for helping States manage the enormous task of preserving 
and protecting wildlife species and helping strike the 
necessary balance between human activity and wildlife 
conservation.
    Thank you.

    Senator Boxer. Thank you.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Madam Chairman.
    Mr. Hamilton, congratulations. And congratulations to those 
who are with you today. I appreciated you taking the time to 
come to visit with me yesterday and answer quite a few 
questions.
    You know, Wyoming has a long history with the Department of 
the Interior and certainly with the U.S. Fish and Wildlife 
Service. As we discussed, in the 1990s under President Clinton 
the relationship soured. There was mistrust of the Agency by 
the people in my State, and it has continued.
    Under President Clinton and Interior Secretary Babbitt, 
wolves were reintroduced into Yellowstone and into Wyoming. The 
decision was made without regard to many of the people who live 
there. When they started, they required there be 30 packs of 
wolves in Yellowstone. Now, there are over 1,000, and they are 
in Wyoming, Idaho, Montana, some in Colorado, Oregon, 
Washington State, and, at this point, Fish and Wildlife 
Services refuses to de-list the wolf in Wyoming.
    There is an article that appeared in the Los Angeles Times 
this past January that quoted Ed Bangs, who at the time was 
Federal gray wolf recovery coordinator for the U.S. Fish and 
Wildlife Service. He said, the bottom line is wolves are fully 
recovered, and they should be de-listed, and that it is the 
right time and the right thing to do.
    Yet, the wolf has still not been de-listed in Wyoming. The 
Clinton administration created the problem, but the Bush 
administration failed to solve it. And so far, the Obama 
administration has not dealt with it. It is time for that 
course to change, and it is time to restore the trust between 
the people of my State and the U.S. Fish and Wildlife Service.
    I hope we can count on you and this Administration to work 
with Wyoming to see the wolves de-listed. I was very encouraged 
by your answers to Senator Cardin, to his questions 
specifically related to the Endangered Species Act.
    The gray wolf, really, is just symptomatic of a larger 
problem, which is how the Endangered Species Act is 
functioning. I think the law needs to be fixed to make it work 
in the way it was intended. You visited a little bit about what 
the intent of the law was. If the so-called proponents of the 
Endangered Species Act were really for species recovery, then 
they would be joining me and others in the West who find the 
law to be anything but really a species recovery tool.
    In my home State of Wyoming, we see the realities of how 
the Endangered Species Act is used every day. We are told it is 
supposed to recover species and then take the species that has 
been recovered off the list. If the number and the population 
decline, then put them back on the list. That did not happen in 
the case of the gray wolf.
    The Endangered Species Act is not doing what it was 
intended to do. It is becoming now a tool of first resort of 
those who want to control American's every move. Often these 
supporters of the Act celebrate adding new species to the list, 
instead of celebrating when we have gotten recovery of a 
species and gotten the species off the list.
    Often these supporters celebrate tying up energy projects 
in the courts and celebrate trying to use the Endangered 
Species Act as a climate change tool. These are the same 
projects, though, that are needed to help us wean off of 
foreign energy sources and to help keep energy prices low 
across America.
    So, I think we need a fundamental shift in how we think 
about the Endangered Species Act. We need to move away from a 
mentality that the Endangered Species Act is just a tool to be 
used by people with an agenda that has nothing to do with the 
actual species involved.
    We need to look at States as partners in species recovery 
and not be afraid to pass the baton to the people on the ground 
who know the species best. We need to move away from a 
mentality that listing a species is the goal and toward the 
mentality that puts emphasis on recovery. We need to move away 
from the mentality that blocking needed projects that provide 
for our communities is somehow a victory by using the 
Endangered Species Act just as a tool.
    So, I believe we should focus on recovery of the species 
that are on the list. The emphasis must be on recovery, and 
then get the species off the list.
    I look forward to working with you if you are confirmed and 
that you would follow those principles.
    In terms of the wolf, at this point I would ask, does the 
Administration believe that States like Wyoming can live up to 
our commitments to protect the wolf under agreement upon 
management plans and recovery goals and get the wolf off the 
Endangered Species list for Wyoming?
    Mr. Hamilton. Thank you, Senator. We have had a lot of 
success, as I mentioned yesterday in our visit, that I have 
more experience with the red wolf in North Carolina and the 
relationships that we have got with the landowners there and 
the good work that we have done.
    But I am aware of the gray wolf issues, and very much my 
commitment, if confirmed, would be to very closely work with 
the State of Wyoming.
    One of the things that we have done in the Southeast is had 
just a tremendous relationship with the State wildlife 
agencies. And you are right. We are having huge success with 
the wolf program.
    The key will be, in Wyoming, to get a good regulatory 
program. A monitoring program is key to being able to legally 
de-list the species. So, working with the State of Wyoming, I 
believe we can get there. Because we certainly are having 
success on the ground with wolves.
    Senator Barrasso. Thank you very much. Congratulations.
    Madam Chairman, I have a couple of other questions that I 
will submit for the record with your permission.
    Senator Boxer. Absolutely, you can do that. And we hope 
that you can get those back as soon as possible so we can move 
on your vote. You have such strong support in the committee.
    I just want to make sure. I am going to reiterate. On the 
Endangered Species Act, it is very clear that we protect a 
species but when it is no longer in trouble, we de-list it. Is 
that not correct?
    Mr. Hamilton. Absolutely.
    Senator Boxer. And is it not the most important thing that 
we use science and not politics to guide us?
    Mr. Hamilton. That is correct.
    Senator Boxer. Yes. I mean, that is the key. You know, I am 
not a scientist, and I do not know that any member here is a 
scientist, especially when it comes to this particular area, so 
I hope that you will rely on the science and not the politics 
and not my calling you into my office or any other committee 
member doing so.
    I think you have said that clearly, that science will be 
your guide. That is all that matters with me. If I do not agree 
with the outcome, if I am disappointed, I have my fight with 
the scientists, not you. Because you would just be doing your 
job. Am I right on that? That is the way you approach it?
    Mr. Hamilton. Yes, you are.
    Senator Boxer. Mr. Hamilton, speaking of scientists, 
scientists have shown that global warming will have significant 
impacts on wildlife and their habitats, threatening many with 
extinction. The U.S. Government's Global Change Research 
Program recently released a report that projects impacts of 
global warming on ecosystems here in the United States.
    Your written testimony for this hearing describes climate 
change as the transformational challenge of our time, which I 
am very appreciative of.
    Given the projected impacts and your own assessment of the 
challenge that climate change presents, how will you approach 
this issue with the Fish and Wildlife Service? I am assuming it 
is going to be science leading you and then working with other 
agencies. Is that what your plan would be?
    Mr. Hamilton. That is our plan. Senator, we have been 
working for a couple of years on a strategic plan that we hope 
to get put out for comments in the coming months, a very 
comprehensive approach.
    The way we see it, we think the Fish and Wildlife Service 
has a leadership role in wildlife adaptation. Species are going 
to need to be able to adapt in a climate changed environment. 
They are going to need to be able to move from place to place, 
across political lines and State lines. We believe that the 
Service is in a good position to help try to lead those 
efforts.
    We have huge issues, whether it is invasive exotics or sea 
level rise. One hundred sixty-six of our refuges are on the 
coast. So, we have a huge interest along the coasts of America. 
So, how we continue to purchase land, conservation lands, where 
they are strategically put together, is very, very important.
    So, we have a lot of great people working on that within 
the Agency, as well as the work we are doing with the USGS in a 
partnership way, and we are closely working with the States, 
the Association of Fish and Wildlife Agencies, the State 
agencies, to work a climate strategy for wildlife all across 
the United States. It is an extremely high priority of ours.
    Senator Boxer. Well, that is excellent.
    I think the fact that we do not have more people here 
torturing you with a lot of questions says that you really do 
have broad support in this committee. That is really a 
testament to your career. We are very pleased that you have 
been nominated. I certainly, as the Chair, and I believe I 
speak for Senator Inhofe, we are going to do everything we can 
to move you through.
    Congratulations to you on this nomination, congratulations 
to your family and friends that here with you today, and your 
boss is here. What more could you want than a smooth hearing?
    We will stand adjourned and move you as quickly as we can.
    [Whereupon, at 10:45 a.m., the full committee was 
adjourned.]

                                 [all]
                                 
                                 
                                 
</pre></body></html>
